!

ri

!i
i

rr

w
!

r
i

w-'

H

si!
Tl

n

L!

n

4
H

n

I

i

•I!

Case l:ll-cr-00129-CKK Document 1045 Filed 11/21/19 Page 1 of 29

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
UNITED STATES OF AMERICA,
v.

GEZO GEONG EDWARDS,

Criminal No. 11-00129-01 (CKK)
Civil No. 17-2778 (CKK)

Defendant.

MEMORANDUM OPINION
(November 21, 2019)
Presently before the Court is pro se Defendant Gezo Geong Edwards’ Motion to Vacate,
Set Aside, or Correct Sentence pursuant to 28 U.S.C. § 2255 (“Motion”). Defendant, Gezo Geong
Edwards (“Mr. Edwards” or “Defendant”) requests that this Court vacate, set aside, or correct his
sentence based upon his claims of ineffective assistance of counsel. Mr. Edwards also includes a
“Motion for Discovery” within his motion, seeking access to a code or program to open files and
documents given to him by his former counsel.1 Upon a searching review of the parties’
submissions, the relevant authorities, and the record as a whole, the Court finds that Mr. Edwards
is not entitled to the requested relief.2 Accordingly, the Court shall DENY Mr. Edwards’ Motion

i

The Court will contact Mr. A. Eduardo Balarezo and instruct him to assist Mr. Edwards with
accessing the materials.
2 In connection with this Memorandum Opinion and the accompanying Order, this Court
considered Def.’s Mot. to Vacate, Set Aside, or Correct Sentence (“Def.’s Mot.”), ECF No. 975;
the Government’s Opp’n (“Gov’t Opp’n”), ECF No. 1001; and Def.’s Reply, ECF No. 1017.
Page references for documents filed with the Court refer to the pages assigned by the ECF
system.
1

Case l:ll-cr-00129-CKK Document 1045 Filed 11/21/19 Page 2 of 29

to Vacate, Set Aside, or Correct Sentence.
I. BACKGROUND
The facts in this case may be summarized as follows: Mr. Edwards was a member of a
wholesale cocaine trafficking organization operating in the District of Columbia (the “District )
metropolitan area from January 2009 through April 26, 2011, when he was arrested as a result of
an investigation by the Federal Bureau of Investigation and the District of Columbia Metropolitan
Police Department. The Government obtained evidence of Mr. Edwards’ participation in the
organization through various methods, including pen registers, arranged undercover drug buys,
judicially-authorized wiretaps, physical surveillance, and surveillance videos. Mr. Edwards and
his co-conspirators acquired large quantities of cocaine in California, shipped it to the District, and
distributed it to mid-level and street-level dealers. Mr. Edwards was responsible for contacting
suppliers in California, ensuring that the multi-kilogram quantities of cocaine were shipped from
California to the District, and even cutting and processing the cocaine. Probation Pre-Sentence
Investigation Report at 7-11, ECF No. 716. Mr. Edwards was initially represented by Mr. Harry
Tun,3 but was later represented by Mr. A. Eduardo Balarezo during his pretrial and trial
proceedings.
In a Superseding Indictment filed on June 16, 2011, Mr. Edwards was charged with one
count of conspiracy to distribute and possess with intent to distribute five kilograms or more of
cocaine, in violation of 21 U.S.C. §§ 841 (a)(1), (b)(l)(A)(ii), 846, and two counts of using,
carrying, and possessing a firearm during a drug trafficking offense, in violation of 18 U.S.C. §

3 Mr. Tun was found to have engaged in a practice known as “double-billing” and was later
suspended from the practice of law in the District. In re Tun, 26 A.3d 313, 315 (D.C. 2011). Mr.
Tun is not the subject of Mr. Edwards’ ineffective assistance of counsel claims.
2

Case l:ll-cr-00129-CKK Document 1045 Filed 11/21/19 Page 3 of 29

924(c)(1). Redacted Superseding Indictment, ECF No. 440. The Superseding Indictment also
included asset forfeiture provisions. Id. The two counts of using, carrying and possessing a
firearm during a drug trafficking offense were consolidated into one count before the case went to
the jury.
On November 18, 2011, the Government filed the first of two bills of particulars to
supplement the forfeiture allegations in the superseding indictment. First Bill of Particulars for
Forfeiture, ECF No. 131. The Government described items subject to forfeiture as falling into four
categories: money judgment, real property, United States currency, and personal property. Id. at
1-3. On December 13, 2011, the Government filed its second bill of particulars. Second Bill of
Particulars for Forfeiture, ECF No. 136. Stemming from both bills of particulars, and with regard
to Mr. Edwards, the Government requested a money judgment equal to the value of any and all
property constituting, or derived from, any proceeds obtained, directly or indirectly, as a result of
the offenses charged, and listed the following assets as subject to forfeiture: $360,009.00 in U.S.
currency; $6,380.00 in U.S. currency; $16,538.60 held at TD Bank NA, in the name of Lunar
Funding Group, LLC; $6,064.90 held at TD Bank NA, in the name of The Gueong Edwards Family
Trust4; one platinum ladies diamond engagement ring; and one ladies Rolex President, oyster
perpetual datejust watch.
On February 22,2012, Mr. Edwards, through counsel, filed a Motion for Release of Funds,
ECF No. 192, alleging that without access to the funds the Government had seized from him, he
could not retain counsel of his choice. Mr. Edwards sought a hearing to determine the validity of

4 In the first bill of particulars, the Government gave different values for the amounts held at TD
Bank NA, even though those amounts did not add up to the total amount stated. The Court will
use these values as it appears the Government miscalculated the values.
3

Case l:ll-cr-00129-CKK Document 1045 Filed 11/21/19 Page 4 of 29

the Government’s seizure of assets as he wanted to use those assets to pay a retainer fee that he
and Mr. Balarezo agreed upon should the case proceed to trial. Id. The Government filed a
Memorandum in Opposition, ECF No. 194, arguing that Mr. Edwards did not make a threshold
showing that he lacked sufficient assets to pay Mr. Balarezo. The Court agreed and denied Mr.
Edwards’ request without prejudice. Order (Feb. 29, 2012), ECF No. 196.
Mr. Edwards also filed pretrial suppression motions, two counseled and one pro se,
contesting the authorization of the Government’s use of wiretaps throughout the investigation.
This Court denied each of those motions. See, e.g., United States v. Edwards, 889 F. Supp. 2d 1,
18 (D.D.C. 2012); id. at 23-29; United States V. Edwards, 904 F. Supp. 2d 7, 9-11 (D.D.C. 2012).
During its case-in-chief, the Government presented an expert witness and a confidential
informant to link Mr. Edwards to the cocaine sold by Mr. Edwards and his co-conspirators. The
expert witness testified as to the purity of the cocaine, and the confidential informant (“Cl”)
testified as to the controlled drug buys. The defense did not present any expert testimony refuting
the Government’s claims about the origin of the cocaine nor any testimony about the common
practices drug dealers use to conceal drugs from detection. Instead, Mr. Edwards’ defense at trial
questioned whether Mr. Edwards and his co-conspirators entered into an agreement, to prove
conspiracy, and cast doubt on the character of the Government’s witnesses who testified as to the
controlled drug buys. See Trial Transcript (“Tr.”). 14, 16-33, Nov. 15, 2012 P.M. Session, ECF
No. 713.
On November 20, 2012, following a month-long jury trial, the jury found Mr. Edwards
guilty on the charge of conspiracy to distribute and possess with intent to distribute five kilograms
or more of cocaine, and acquitted him of the charge of using, carrying, and possessing a firearm.
Verdict Forms, ECF Nos. 651/653. Following a separate forfeiture hearing, the jury found that
4

Case l:ll-cr-00129-CKK Document 1045 Filed 11/21/19 Page 5 of 29

the Government proved that the following items constituted or were derived from proceeds that
Mr. Edwards had obtained, directly or indirectly, as a result of the conspiracy charged in count one
of Superseding Indictment: $360,009.00 in U.S. currency; $16,538.60 held at TD Bank NA, in the
name of Lunar Funding Group, LLC; $6,064.90 held at TD Bank NA, in the name of The Gueong
Edwards Family Trust; and one ladies Rolex President, oyster perpetual datejust watch. Partial
Forfeiture Verdict Form, ECF No. 595; Final Forfeiture Verdict Form, ECF No. 597. The jury
found that the Government did not prove that $6,380.00 in U.S. Currency was subject to forfeiture.
Partial Forfeiture Verdict Form; ECF No. 595. The jury was unable to reach a decision as to the
platinum ladies diamond engagement ring. Final Forfeiture Verdict Form; ECF No. 597.
On January 7, 2013, the Government filed aNotice of Forfeiture, ECF No. 670, seeking to
forfeit the ring and the $6,380.00 in U.S. currency as substitute assets pursuant to 21 U.S.C. §
853(p). It later fded a Motion for Preliminary Order of Forfeiture, ECF No. 677, requesting
forfeiture of all assets. Mr. Edwards, through counsel, opposed the Government’s motion, arguing
that it failed to establish any nexus between the ring and the charged offense. Def.’s Opp’n to
Gov’t’s Mot. For Preliminary Order of Forfeiture at 3, ECF No. 695. The Government filed a
Second Motion for Preliminary Order of Forfeiture, ECF No. 771, seeking discovery authority to
identify and locate assets subject to forfeiture, or substitute assets for such property. This Court
granted the Government’s Motion for Preliminary Order of Forfeiture. Preliminary Order of
Forfeiture, ECF No. 779. The Court entered a Final Order of Forfeiture, ECF No. 867, on February
27, 2014, the day that Mr. Edwards had his sentencing.
The Court sentenced Mr. Edwards to life imprisonment and a ten-year term of supervised
release. Judgment, ECF No. 876. Mr. Edwards filed a timely notice of appeal to the United States
Court of Appeals for the District of Columbia Circuit, which affirmed his conviction. United States
5

Case l:ll-cr-00129-CKK Document 1045 Filed 11/21/19 Page 6 of 29

V. Williams, 827 F.3d 1134, 1141 (D.C. Cir. 2016), cert denied sub nom. Edwards v. United States,
137 S. Ct. 706 (2017). The Government moved subsequently to amend the Final Order of
Forfeiture, ECF No. 947. Mr. Edwards, then represented by Mr. David B. Smith, filed his
Response to the Government’s motion, ECF No. 952. The Court entered an Order of Forfeiture for
Substitute Assets, ECF No. 957, granting the Government’s motion to amend.
Mr. Edwards filed the present Motion to Vacate Sentence under 28 U.S.C. § 2255. ECF
No. 975. Prior to filing the instant Motion, Mr. Edwards did not file any previous petitions,
applications, or motions with respect to the judgment after his direct appeal. Mr. Edwards’ Motion
is premised on allegations of ineffective assistance of counsel related to his trial counsel, Mr.
Balarezo. Mr. Edwards’ claims that Mr. Balarezo was constitutionally ineffective fall into six
general categories: (1) Mr. Balarezo’s handling of the criminal forfeiture aspect of the case both
pre-trial and post-trial; (2) Mr. Balarezo’s alleged actual conflict of interest; (3) Mr. Balarezo’s
failure to call an expert witness and to conduct independent testing to rebut the Government’s
claims regarding the source of the cocaine; (4) Mr. Balarezo’s failure to accurately and adequately
argue that the evidence obtained from the wiretaps should have been suppressed; (5) Mr.
Balarezo’s failure to challenge the sufficiency of the Superseding Indictment; and (6) the
cumulative effect of Mr. Balarezo’s ineffective representation of Mr. Edwards. The Government
filed its opposition, ECF No. 1001, and Mr. Edwards filed his reply to the Government’s
Opposition, ECF No. 1017.

With briefing concluded, Mr. Edwards’. Motion is now ripe for

determination.
II. LEGAL STANDARD
Under 28 U.S.C. § 2255, a federal prisoner may file a motion to vacate, set aside or correct
his sentence if he believes that the otherwise final sentence was imposed “in violation of the
6

Case l:ll-cr-00129-CKK Document 1045 Filed 11/21/19 Page 7 of 29

Constitution or laws of the United States, or that the court was without jurisdiction to impose such
sentence, or that the sentence was in excess of the maximum authorized by law, or is otherwise
subject to collateral attack.” 28 U.S.C. § 2255(a). The standard for granting such a motion is high,
as courts generally respect the finality of judgments and note the opportunities already afforded
prisoners to raise objections during trial or on appeal. “[T]o obtain collateral relief a prisoner must
clear a significantly higher hurdle than would exist on direct appeal.” United States v. Frady, 456
U.S. 152, 166 (1982). The petitioner has the burden of proof to demonstrate his right to such relief
by a preponderance of the evidence. United States v. Basu, 881 F. Supp. 2d 1, 4 (D.D.C. 2012).
A court shall grant a hearing to determine the issues and make findings of fact and conclusions of
law “[ujnless the motion and the files and records of the case conclusively show that the prisoner
is entitled to no relief.” 28 U.S.C. § 2255(b).
With few exceptions, a prisoner may not raise a claim as part of a collateral attack if that
claim could have been raised on direct appeal, unless he can demonstrate either: (1) cause for
his failure to do so and “prejudice” as a result of the alleged violation, or (2) “actual innocence
of the crime of which he was convicted. Bousley v. United States, 523 U.S. 614, 622-23 (1998).
However, “[wjhere a petitioner raises claims of ineffective assistance of counsel in a § 2255
motion, he need not show ‘cause and prejudice’ for not having raised such claims on direct appeal,
as these claims may properly be raised for the first time in a § 2255 motion.

United States v.

Cook, 130 F. Supp. 2d 43, 45 (D.D.C. 2000) (citation omitted), aff’d, 22 F. App’x 3 (D.C. Cir.
2001).
A defendant claiming ineffective assistance of counsel may raise it for the first time as a
collateral attack, rather than on direct appeal, but must show (1) “that counsel’s performance fell
below an objective standard of reasonableness under prevailing professional norms, and (2) that
7

Case l:ll-cr-00129-CKK Document 1045 Filed 11/21/19 Page 8 of 29

this error caused [him] prejudice.” United States v. Hurt, 527 F.3d 1347, 1356 (D.C. Cir. 2008)
(citation omitted). For the first prong, “[jjudicial scrutiny of counsel’s performance must be highly
deferential” and defendant must “overcome the presumption that, under the circumstances, the
challenged action might be considered sound trial strategy.” Strickland v. Washington, 466 U.S.
668, 689 (1984) (internal quotation marks and citation omitted). The Court must consider
“counsel’s overall performance,” Kimmelman v. Morrison, 477 U.S. 365, 386 (1986), and “indulge
a strong presumption that counsel’s conduct falls within the wide range of reasonable professional
assistance,” Strickland, 466 U.S. at 689. “The benchmark forjudging any claim of ineffectiveness
must be whether counsel's conduct so undermined the proper functioning of the adversarial process
that the trial cannot be relied on as having produced a just result.” Id. at 686. It is the petitioner’s
burden to show that counsel’s errors were “so serious” that counsel could not be said to be
functioning as the counsel guaranteed by the Sixth Amendment. Harrington v. Richter, 562 U.S.
86,104(2011).
Furthermore, the defendant must meet the second Strickland prong and “affirmatively
prove prejudice.” Strickland, 466 U.S. at 693. That is, “[t]he defendant must show that there is a
reasonable probability that, but for counsel’s unprofessional errors, the result of the proceeding
would have been different. A reasonable probability is a probability sufficient to undermine
confidence in the outcome.” Id. at 669. To find prejudice, the petitioner must show that there is
“a substantial, not just conceivable, likelihood of a different result.” Cullen v. Pinholster, 563 U.S.
170, 189 (2011) (internal quotation marks and citation omitted). An ineffective assistance of
counsel claim is defeated if the defendant fails to demonstrate either prong.
III. DISCUSSION
A district court may deny a Section 2255 motion without a hearing when “the motion and
8

Case l:ll-cr-00129-CKK Document 1045 Filed 11/21/19 Page 9 of 29

files and records of the case conclusively show that the prisoner is entitled to no relief.” 28 U.S.C.
§ 2255(b). Whether or not to hold a ,hearing is a decision “committed to the district court’s
discretion, particularly when, as here, the judge who is considering the § 2255 motion also presided
over the proceeding in which the petitioner claims to have been prejudiced.” United States v.
Orleans-Lindsay, 572 F. Supp. 2d 144, 166 (D.D.C. 2008); see also United States v. Agramonte,
366 F. Supp. 2d 83, 85 (D.D.C. 2005), affd, 304 Fed. App’x 877 (D.C. Cir. 2008). “The judge’s
own recollection of the events at issue may enable him summarily to deny a Section 2255 motion.”
Agramonte, 366 F. Supp. 2d at 85 (citing United States v. Pollard, 959 F.2d 1011, 1031 (D.C. Cir.
1992), cert, denied, 506 U.S. 915 (1992)). To warrant a hearing, the petitioner’s Section 2255
motion must “raise ‘detailed and specific’ factual allegations whose resolution requires
information outside of the record or the judge’s ‘personal knowledge or recollection.’” Pollard,
959 F.2d at 1031 (quoting Machibroda v. United States, 368 U.S. 487, 495 (1962)).
Based on a review of the parties’ pleadings and the entire record in the criminal proceeding,
the Court finds that there is no need for an evidentiary hearing on the instant Motion.5 As explained
below, Mr. Edwards has not proffered detailed and specific factual allegations requiring this Court
— which handled the trial and sentencing in this case — to look outside the record and hold a
hearing on the issues raised in Mr. Edwards’ Motion. Accordingly, the Court shall render its
findings based on the parties’ pleadings and the record in this case.
Mr. Edwards raises claims of ineffective assistance of counsel as it pertains to: (1) Mr.
Balarezo’s handling of the criminal forfeiture aspect of the case both pre-trial and post-trial; (2)

5 Mr. Edwards also requests that counsel be appointed to him for an evidentiary hearing. Def.’s
Mot. at 53. The Court denies Mr. Edwards’ request because an evidentiary hearing is not
warranted.
9

Case l:ll-cr-00129-CKK Document 1045 Filed 11/21/19 Page 10 of 29
J

Mr. Balarezo’s alleged actual conflict of interest; (3) Mr. Balarezo’s failure to call an expert
witness and to conduct independent testing to rebut the Government’s claims regarding the source
of the cocaine; (4) Mr. Balarezo’s failure to accurately and adequately argue that the evidence
obtained from the wiretaps should have been suppressed; (5) Mr. Balarezo’s failure to challenge
the sufficiency of the Superseding Indictment; and (6) the cumulative effect of Mr. Balarezo’s
ineffective representation of Mr. Edwards. The Court shall address each claim in turn.
A. Pre-Trial and Post-Trial Handling of the Criminal Forfeiture Aspect of the Case
The Court will first address the pre-trial handling of the criminal forfeiture by Mr.
Balarezo.

Mr. Edwards claims that Mr. Balarezo “failed to present assets known by the

government to be untainted, and assets that the government could not reasonably meet [the]
probable cause [standard] to continue to freeze [them] under an assumption of possible forfeiture
for future purposes.” Def.’s Mot. at 18. Mr. Edwards claims that Mr. Balarezo was ineffective in
his attempts to secure the return of assets, later determined to be untainted by the jury, to pay the
remaining balance of Mr. Balarezo’s retainer fee. Def.’s Mot. at 18-19, ECF No. 975.
In its Order denying Mr. Edwards’ Motion for Release of Funds, the Court found that Mr.
Edwards “did not provide any additional information regarding his assets, liabilities, sources of
income, or other information relevant to his ability to retain legal counsel” other than merely
stating that he did not have any available funds to pay Mr. Balarezo’s retainer. Order (Feb. 29,
2012) at 4, ECF No. 196. Mr. Edwards’ motion stated that “Mr. Edwards has demonstrated that
he cannot retain counsel of his choice without the assets that have been seized or retrained [sic].”
Mot. to Release Funds at 2, ECF No. 192. Mr. Edwards noted on February 22, 2012, that Mr.

10

Case l:ll-cr-00129-CKK Document 1045 Filed 11/21/19 Page 11 of 29
■/

Balarezo was his counsel of choice,6 Def.’s Aff. in Supp. of Mot. for Release of Funds, ECF No.
192-1, and upon questioning by this Court during a status hearing in late July 2012, Mr. Edwards
affirmed again that he was satisfied with his counsel.
The Court found that Mr. Edwards failed to provide information regarding the amount of
funds he needed to retain Mr. Balarezo to proceed to trial, and that it could not determine whether
the seized assets were necessary for Mr. Edwards to retain counsel of his choice. Order (Feb. 29,
2012) at 5, ECF No. 196. Furthermore, Mr. Edwards could not demonstrate that certain assets
seized by the Government “would [have] be[en] available to [him] to pay for legal services”
because probable cause was lacking. Id. at 6.
Mr. Edwards acknowledges that his initial motion to have those assets returned to him was
denied because he failed to make the threshold showing that he lacked sufficient assets to pay Mr.
Balarezo. Def.’s Mot. at 14, ECF No. 975. Nonetheless, Mr. Edwards argues that Mr. Balarezo
was ineffective in his handling of the pre-trial motion because “[Mr. Balarezo] should have known
the meaning of a threshold presentations [sic] and its legal requirements as a presentation in the
Court to succeed in a 853 Pre-trial hearing.” Id. at 17. In particular, Mr. Edwards argues that Mr.
Balarezo should have informed this Court that (1) Mr. Edwards owed $20,000 to Mr. Balarezo;
(2) his wife had to pay for the retainer fee by “taking [it] out [of] her 401(k) and credit cards; (3)
he pays child support; and (4) he is “saddled with mortgage payments.” Id.
Mr. Edwards states further that he “instructed Balarezo specifically to move the Court for
the hearing to return the untainted assets so that he could pay for an attorney to proceed to trial.

6 Upon questioning by this Court during a status hearing in late July 2012, Mr. Edwards affirmed
again that he was satisfied with his counsel.
11

Case l:ll-cr-00129-CKK Document 1045 Filed 11/21/19 Page 12 of 29

Def.’s Reply at 6, ECF No. 1017. The record indicates that Mr. Balarezo did in fact move this
Court for the return of these assets. Mot. for Release of Funds, ECF No. 192. Other than this, Mr.
Edwards does not specify, with any degree of particularity, the exact circumstances of Mr.
Balarezo’s failure to include the now-identified financial information.

The Court is left to

speculate because Defendant does not indicate whether Mr. Balarezo asked Mr. Edwards for the
financial information, whether that information was readily available at the time, or whether Mr.
Edwards told Mr. Balarezo himself, amongst other relevant factors. Without this information, the
Court will not engage in speculative arguments. See United States v. Morrison, 98 F.3d 619, 62526 (D.C. Cir. 1996) (stating that summary denial is appropriate when an ineffective assistance
claim is speculative).
Assuming, arguendo that Mr. Balarezo’s omission of the now-identified financial
information does constitute deficient performance, the Court finds that Mr. Edwards has failed to
show that Mr. Balarezo’s omission was prejudicial. It is not reasonably probable that, but for Mr.
Balarezo’s omission in the Motion to Return Funds, the result of the proceeding would have been
different. Strickland, 466 U.S. at 669.
The Government argues that Mr. Edwards was not entitled to use any of the seized assets
to secure the services of Mr. Balarezo after it identified the property as subject to forfeiture. Gov t
Opp’n at 17; ECF No. 1001. In addition, the Government argues that Mr. Edwards has failed to
show exactly what Mr. Balarezo could have relied upon pre-trial to demonstrate that the
Government lacked probable cause to seize those assets that were later determined by the jury to
be untainted, i.e. $6*380.00 in U.S. currency and the platinum ladies diamond engagement ring.
Id. at 18. There was not much more Mr. Balarezo could have done, given that a “probable cause
[determination] had been found by the grand jury and the judicial officers who issued the search
12

Case l:ll-cr-00129-CKK Document 1045 Filed 11/21/19 Page 13 of 29
/

warrants.” Id.
The only evidence Mr. Edwards offers to demonstrate that he was entitled to use those
assets is that the jury later concluded that the engagement ring and $6,380.00 in U.S. currency
could not be tied to the conspiracy. Def.’s Mot. at 18. However, probable cause determinations
require a significantly lower bar of proof than that employed by a jury at trial. See United States
v. Mechanik, 475 U.S. 66, 72-73 (1986) (jury verdict renders harmless an error in a grand jury
proceeding). Absent any evidence that probable cause was lacking as to the identified assets,
which Mr. Edwards does not identify either in his Motion or Reply, Mr. Balarezo’s failure to
include Mr. Edwards’ financial circumstances in the initial Motion to Return Funds did not
prejudice him. Furthermore, even if Mr. Edwards intended to use those assets to pay the remaining
balance of Mr. Balarezo’s retainer fee, there is still no apparent prejudice to him because Mr.
Balarezo continued to represent him throughout the trial. Defendant admits that his family paid
the remaining balance of Mr. Balarezo’s fees. Def.’s Mot. at 42.
The Court will now address Mr. Edwards’ argument that Mr. Balarezo was ineffective in
the post-trial criminal forfeiture proceedings. Mr. Edwards claims that Mr. Balarezo failed to move
the Court to return the property that was determined by the jury not to be connected to the
conspiracy. Def.’s Mot. at 49-50. The Government argues that Mr. Edwards’ assertion is baseless.
Gov’t Opp’n at 19. It states that “there was nothing more that Mr. Balarezo could have done”
because Mr. Balarezo challenged the Government’s arguments regarding the property even though
his argument did not persuade the Court. Id.; see generally Mem. in Opp’n to Mot. for Forfeiture
of Property, ECF No. 695. The Government concludes that Mr. Balarezo’s performance during
this phase of the criminal forfeiture proceedings was neither deficient nor prejudicial. Id.
This Court ultimately granted the Government’s request to forfeit the ring and the
13

Case l:ll-cr-00129-CKK Document 1045 Filed 11/21/19 Page 14 of 29
y

$6,380.00 in U.S. currency as substitute assets. Order of Forfeiture for Substitute Assets at 3, ECF
No. 957. The Court shall provide a brief account of how these assets became substituted. The
Government first filed a Notice of Forfeiture, ECF No. 670, where it indicated that it would move
to forfeit the ring and the $6,380.00 in U.S. currency as substitute assets pursuant to 21 U.S.C. §
853(p). In its subsequent Motion for Preliminary Order of Forfeiture, ECF No. 677, the
Government sought discovery authority to identify and locate property to satisfy the money
judgment. Mr. Edwards, through counsel, opposed the Motion for Preliminary Order of Forfeiture,
arguing that the Government failed to establish a nexus between the later substituted assets and
the charged offense. Def.’s Opp’n to Gov’t’s Mot. for Preliminary Order of Forfeiture at 3, ECF
No. 695.

The Government subsequently filed a Second Motion for Preliminary Order of

Forfeiture, ECF No. 771, pursuant to a status hearing held on May 29, 2013. This Court granted
the Government’s Motion for Preliminary Order of Forfeiture, ECF No. 779, but the language of
the Order proposed by the Government did not include any explicit authorization to substitute the
ring and the $6,380.00 in U.S. currency as substitute assets.
This Court entered the Final Order of Forfeiture, ECF No. 867, on February 27, 2014. The
Government then moved to amend the Final Order of Forfeiture pursuant to 21 U.S.C. § 853(p),
to include the ring and $6,380.00 in U.S. currency, because after exercising due diligence in
attempting to locate directly forfeitable property as direct proceeds from the conspiracy, it could
not locate any property. Gov’t’s Mot. to Amend Order of Forfeiture to Include Substitute Assets
at 6-7, ECF No. 947. The substitute assets would have partially satisfied a money judgment of
$3,000,000, less amounts forfeited, instituted against Mr. Edwards. Id. at 1,7. Mr. Edwards, then
represented by Mr. David B. Smith, informed this Court that he would not consent to having the
assets be substituted. D'ef.’s Resp. to Gov’t’s Mot. to Amend Order of Forfeiture to Include
14

Case l:ll-cr-00129-CKK Document 1045 Filed 11/21/19 Page 15 of 29
/

Substitute Assets at 2, ECF No. 952. The Court granted the Government’s motion to amend and
concluded that the engagement ring and $6,380.00 in U.S. currency were subject to forfeiture as
substitute property. Order of Forfeiture for Substitute Assets (Oct. 10, 2017) at 2, ECF No. 957.
While Mr. Balarezo was not the first to move this Court with regard to the assets, Mr.
Balarezo did oppose the Government’s position. Def.’s Opp’n to Gov’t’s Mot. For Preliminary
Order of Forfeiture at 3, ECF No. 695. The Court does not see how the outcome would be different
if Mr. Balarezo had moved to acquire the ring prior to the Government’s filing if the Government
had a sound basis to substitute the assets. Additionally, Mr. Edwards has not identified any other
option available to Mr. Balarezo at the post-trial criminal forfeiture junction. Given Mr. Edwards’
lack of specificity and/or detailed assertions about Mr. Balarezo’s alleged misconduct and
Defendant’s failure to demonstrate a reasonable probability of a different result; i. e., a return of
ring versus the ring being used by the Government as a substitute asset, the Court shall deny Mr.
Edwards’ claims of ineffective assistance of counsel during the pre-trial and post-trial criminal
forfeiture proceedings.
B. Alleged Actual Conflict of Interest
The Court will now turn to Mr. Edwards’ argument that Mr. Balarezo had an actual conflict
of interest.7 Mr. Edwards argues that he is a “victim of fraud perpetrated by his original counsel,
Flarry Tun,” and that Mr. Balarezo “submitted the [Motion for Release of Funds] in a fashion that
he knew would not survive ... to prevent [Mr. Edwards] from procuring an attorney who would

7 Mr. Edwards specifically argues that Mr. Balarezo’s alleged actual conflict of interest affected
his performance during the pre-trial and post-trial criminal forfeiture phase, pre-trial wiretap
suppression proceedings, and the trial. Def.’s Mot. at 20-24, 46-48, 50-51. For the sake of
clarity, the Court will only address whether an actual conflict of interest existed as this argument
is central to Mr. Edwards’ three specific claims regarding conflict of interest.
15

Case l:ll-cr-00129-CKK Document 1045 Filed 11/21/19 Page 16 of 29
/

pursue actions against [Mr.] Tun ...

Def.’s Mot. at 20, 22. Mr. Edwards claims that he and Mr.

Tun initially agreed to a retainer fee of $40,000, and that after Mr. Tun filed his Motion to
Withdraw, Mr. Tun was to transfer the full $40,000 to Mr. Balarezo. Id. at 21. According to Mr.
Edwards, only $20,000 was paid to Mr. Balarezo. Id. Mr. Edwards states that he told Mr. Balarezo
that “he wanted to take action against [Mr.] Tun for defrauding the money out of him,” to which
Mr. Balarezo responded that “he [would] not pursue any actions against [Mr.] Tun” and that “he
had nothing to do with obtaining the remaining $20,000 from Tun,” but rather, “[Mr. Edwards]
was responsible for paying the remaining $20,000.” Id. at 22. Based on his own representations,
Mr. Edwards does not claim that he entered into a consolidated agreement with Mr. Tun and Mr.
Balarezo nor were the two attorneys affiliated with a single law firm. Accordingly, it was not Mr.
Balarezo’s responsibility to attempt to obtain the remaining $20,000.00 from Mr. Tun instead of
obtaining payment directly from his client, Mr. Edwards.
Mr. Edwards concludes that “[Mr.] Balarezo knew that [Mr.] Tun was accepting money
from [him] under false representation” and that Mr. Balarezo then submitted the Motion for
Release of Funds “in a fashion that he knew would not survive.” Id. As a result of the denial of
the Motion for Release of Funds, Mr. Edwards argues that Mr. Balarezo should have “notified the
Court that [Mr.] Tun was [his] original counsel... and that since [he] could not afford to proceed
with [Mr. Balarezo] that the Court should [have] appointed] [him] [new] counsel.” Def.’s Mot.
at 23, ECF No. 975.
The Government argues that Mr. Balarezo did not labor under an actual conflict of interest.
Gov’t Opp’n at 19. As support, it points to Mr. Edwards’ failure to explain how Mr. Balarezo
rendered ineffective assistance of counsel on the issue of the retainer fee and to the logical fallacy
of Mr. Edwards’ claims that Mr. Balarezo intentionally omitted information from the Motion for
16

Case l:ll-cr-00129-CKK Document 1045 Filed 11/21/19 Page 17 of 29

i

Release of Funds so as to prevent Mr. Edwards from pursuing an action against his former counsel.
Id. at 22-23. The Government argues that it does not make any sense for Mr. Balarezo to
purposefully sabotage his own client’s pleading when payment of his retainer was allegedly
conditioned on the success of that pleading. See id. at 23.
I

In response, Mr. Edwards claims that “[Mr.] Tun’s and [Mr.] Balarezo’s scheme to shift
representation and manipulate [his] funds paid to [Mr.] Tun for his representation, hampered [his]
Sixth Amendment right to counsel of choice.” 8 Def.’s Reply at 10, ECF No. 1017. Mr. Edwards
claims that “to pursue actions against [Mr.] Tun would mean pursuing [Mr.] Balarezo as well
because he was clearly involved in the beginning phase with [Mr.] Tun.” Id. at 11. As evidence
of Mr. Balarezo’s involvement in the alleged scheme, Mr. Edwards claims the following: Mr. Tun
was his initial counsel of choice; Mr. Tun brought Mr. Balarezo to sit in on a meeting, where it
was never discussed why [Mr.] Balarezo was there ... nor did [Mr.] Balarezo in put [sic] anything
during the meeting;” Mr. Tun came to subsequent meetings without Mr. Balarezo; Mr. Tun then
brought Mr. Balarezo to notify Mr. Edwards that Mr. Tun was suspended from practicing law and
that Mr. Balarezo would be taking over the case; and Mr. Balarezo “would not tell [Mr. Edwards]
what [Mr.] Tun was sanctioned for, [Mr. Edwards] later had someone pull it up.” Id. at 10-11.9

8 It is not clear from the record if Mr. Tun was Mr. Edwards’ original counsel of choice. Both
Mr. Tun and Mr. Balarezo filed notices of appearance at the same time, and Mr. Tun even stated
he was “representing Mr. Edwards as co-counsel.” Notice of Attorney Appearance, ECF No. 5;
Notice of Attorney Appearance, ECF No. 6; Mot. to Withdraw as Attorney Tf 1, ECF No. 98.
9 Mr. Tun was present and unaccompanied by Mr. Balarezo at Mr. Edwards’ detention hearings
and arraignments for the initial indictment. Apr. 29, 2011 Minute Entries for proceedings before
Magistrate Judge Deborah A. Robinsoh, May 13, 2011 Minute Entry. On May 3, 2011, Mr.
Balarezo filed a Notice of Consent to Detention, ECF No. 11. Mr. Balarezo was present and
unaccompanied by Mr. Tun for the initial status conference and later for the arraignment on the
Superseding Indictment. May 24, 2011 Minute Entry; June 22, 2011 Minute Entry for
proceedings before Magistrate Judge Alan Kay. Both Mr. Balarezo and Mr. Tun were present for
a status conference on the Superseding Indictment. July 27, 2011 Minute Entry. On September 9,
17

Case l:ll-cr-00129-CKK Document 1045 Filed 11/21/19 Page 18 of 29

Mr. Edwards responds to the Government’s illogical fallacy argument by stating that Mr.
Balarezo was attempting to cover-up his own misconduct when he submitted the Motion to Release
Funds. Id. at 11. Ultimately, Mr. Balarezo, according to Mr. Edwards, advanced his own and Mr.
Tun’s interests to the detriment of Mr. Edwards’ interests. Id. Mr. Edwards proffers no evidence
or further explanation for either of these generalized allegations.
Alleged conflict of interest claims “are a ‘specific genre’ of ineffective assistance of
counsel claim.” United States v. Wright, 745 F.3d 1231, 1233 (D.C. Cir. 2014) (citation omitted).
“In order to establish a violation of the Sixth Amendment, a petitioner who raised no objection at
trial must demonstrate that an actual conflict of interest adversely affected his lawyer’s
performance.” Cuyler v. Sullivan, 446 U.S. 335, 348 (1980). An “actual conflict of interest” exists
when a defense attorney is required to make choices “advancing [someone else’s] interests to the
detriment of his client’s interest.” United States v. Gantt, 140 F.3d 249, 254 (D.C. Cir. 1998). The
“possibility of conflict is insufficient to impugn a criminal conviction.” Cuyler, 446 U.S. at 350.
Furthermore, when the conflict concerns the payment of fees, “courts generally presume that
counsel will subordinate his or her pecuniary interests and honor his or her professional
responsibility to a client.” United States v. Taylor, 139 F.3d 924, 932 (D.C. Cir. 1998) (citations
omitted).
The Court finds that Mr. Edwards has not shown that Mr. Balarezo had an actual conflict
of interest. Mr. Edwards’ statements regarding Mr. Balarezo’s alleged involvement in a scheme
to deprive him of funds that he initially gave to Mr. Tun are speculative and conclusory allegations.

2011, Mr. Tun moved to withdraw as an attorney for Mr. Edwards. Mot. to Withdraw as
Attorney, ECF No. 98. The Court granted Mr. Tun’s motion. Order (Sep. 12, 2011), ECF No.
104.
18

Case l:ll-cr-00129-CKK Document 1045 Filed 11/21/19 Page 19 of 29
r

Relying on Mr. Edwards’ own statements, there is no indication that Mr. Balarezo was a party to
the agreement between Mr. Edwards and Mr. Tun, or that Mr. Balarezo should have affirmatively
sought the $20,000.00 balance of his retainer fee from Mr. Tim as opposed to seeking payment
directly from Mr. Edwards. Nor do the facts that Mr. Edwards cites prove anything nefarious. In
fact, the record appears to contradict Mr. Edwards’ version of how Mr. Balarezo came to represent
him during trial. Again, Mr. Edwards’ argument is further complicated by the fact that on February
22, 2012, five months after Mr. Tun withdrew from the case, Mr. Edwards signed and submitted
an affidavit to the Court stating that Mr. Balarezo was his counsel of choice, Def.’s Aff. in Supp.
of Mot. for Release of Funds, ECF No. 192-1, and Mr. Edwards subsequently affirmed his
satisfaction with counsel in July 2012. Because Mr. Edwards has failed to show that an actual
conflict of interest existed, the Court shall deny his claim that Mr. Balarezo operated under an
actual conflict of interest that adversely affected his representation of Mr. Edwards. See United
States v. Smoot, No. 18-3007, 2019 WL 1246313 at *4 (D.C. Cir. Mar. 19, 2019) (dismissal of
alleged conflict of interest claim is appropriate when defendant has failed to show that an actual
Conflict existed).
C. Failure to Call Expert Witness and Conduct Independent Testing
The Court now turns to Mr. Edwards’ contention that his counsel, Mr. Balarezo, was
constitutionally ineffective for not obtaining a narcotics expert to testily and for failing to conduct
independent testing of the cocaine offered at trial. Mr. Edwards first claims that “[his] counsel
attempted to use the government’s expert witness for his strategic and tactical defense without
actually knowing whether that particular expert was capable or qualified or required to do the type
of testing.” Def.’s Mot. at 27-28; ECF No. 975. Mr. Edwards faults Mr. Balarezo’s alleged
misstep as the reason why “[Mr. Balarezo] attempted to use the government’s expert witness for
19

Case l:ll-cr-00129-CKK Document 1045 Filed 11/21/19 Page 20 of 29

his strategic and tactical defense.” Id. “Clearly,” according to Mr. Edwards, “[Mr. Balarezo] was
insufficiently prepared for trial, and as a result did not call nor interview his own expert in support
of his strategic and tactical decision.” Id. at 28.
Second, Mr. Edwards claims that “[Mr. Balarezo] had reasons to support a strategic and
tactical advance to cause the jurors to consider whether all the drugs that [were] sampled in the
investigation came from [another co-conspirator in the case].” Id. “Had counsel conducted an
independent investigation and consulted with his own expert, the next step of challenging the
government’s case under his defense would have been to present expert testimony concerning
known tactics used by drug dealers and Cl’s [Confidential Informants] conducting controlled drug
purchases.” Id at 33. Ultimately, Mr. Edwards wanted Mr. Balarezo to have consulted with an
expert on chemical profiling and another expert with knowledge on drug trafficking to illustrate
the tactics that Cl’s employ when conducting controlled drug buys to contest the connection
between the drugs found and the conspiracy. See id. at 34.
The Government argues that Mr. Edwards’ argument fails to show that Mr. Balarezo’s
decision not to call an expert witness was either deficient or prejudicial under Strickland. Gov’t
Opp’n at 26. Specifically, the Government argues that Mr. Edwards has not shown that had the
drugs been tested, the results would have revealed that the drugs seized were either not cocaine or
from a co-conspirator. Id. Additionally, the Government claims that Mr. Edwards’ argument is
based purely on speculative thinking because he does not name a witness who could have testified
nor provide the testimony that a hypothetical witness would have given. Id.
Under the Strickland test, a defendant “must overcome the presumption that, under the
circumstances, a challenged action ‘might be considered sound trial strategy.’” Strickland, 466
U.S. at 689 (citation omitted). A court “must indulge a strong presumption that counsel’s conduct
20

Case l:ll-cr-00129-CKK Document 1045 Filed 11/21/19 Page 21 of 29

falls within the wide range of reasonable professional assistance^]” Id. In addition, “strategic
choices made after [a] thorough investigation of the law and facts relevant to plausible options are
virtually unchallengeable.” United States v. Morrison, 98 F.3d 619, 623 (D.C. Cir. 1996) (citation
omitted). When a defendant challenges his counsel’s choice of a defense, he must show that the
choice was unreasonable and not constitutionally adequate given the circumstances. See Johnson
v. Alabama, 256 F.3d 1156, 1177-1178 (11th Cir. 2001).
Mr. Edwards’ contentions regarding Mr. Balarezo’s failure to establish the source of the
cocaine references the testimony provided by two of the Government’s witnesses. The first witness
was Kittie Wong, a senior forensic chemist at the Drug Enforcement Administration. Trial Tr.
26:8-18, Oct. 25, 2012 P.M. Session, ECF No. 619. Ms. Wong testified that, to her knowledge,
any chemical profiling that would reveal where the cocaine originated from geographically was
not performed on the sample she tested. Trial Tr. 47:25, ECF No. 619. Mr. Balarezo attempted to
elicit testimony from her on cross examination regarding the Drug Enforcement Administration’s
possible policies in place with regard to testing for chemical profiling. Trial Tr. 44:21-22, ECF
No. 619. This Court sustained the Government’s objection to Mr. Balarezo’s question because
Mr. Balarezo was attempting to make the Government’s expert witness a witness for the defense.
Trial Tr. 46:4-22, ECF No. 619. Mr. Balarezo candidly admitted to the Court at side-bar that he
was attempting to elicit testimony that the Drug Enforcement Administration did not perform a
test that conclusively shows that the sample it tested matched another sample in the case to show
that it only came from one of the co-conspirators as opposed to Mr. Bowman. Trial Tr. 45:16-21,
ECF No. 619.
The second witness was Special Agent Naugle, who testified to participating in the
purchase of cocaine by a confidential informant. Trial Tr. 50:16-19. Special Agent Naugle
21

Case l:ll-cr-00129-CKK Document 1045 Filed 11/21/19 Page 22 of 29
*■

testified that the confidential informant drove her own personal vehicle to the site of the drug buy.
Trial Tr. 51:10-12. He also testified that he searched the confidential informant’s vehicle prior to
the purchase. Trial Tr. 51:13-15.
Mr. Edwards’ argument that Mr. Balarezo committed himself to develop a defense to cast
doubt on the source of the cocaine, and that calling an expert witness was crucial to the
development of that defense, is simply not supported by the record. In fact, the record indicates
that Mr. Balarezo pursued a different defense. Mr. Balarezo, in his closing arguments, repeatedly
cast doubt on the character of the Government’s witnesses who testified as to the controlled drug
buys and cast doubt on the Government’s evidence proving that Mr. Edwards and his co­
conspirators agreed to enter into a conspiracy. See Trial Tr. 14,16-33, Nov. 15,2012P.M. Session,
ECF No. 713.
A claim of ineffective assistance of counsel based on the failure to consult and call an
expert requires “evidence of what a scientific expert would have stated” at trial in order to establish
prejudice. Day v. Quarterman, 566 F.3d 527,538 (5th Cir. 2009); see also Rodela-Aguiar v. United
States, 596 F.3d 457, 462 (8th Cir. 2010). Generally, courts will look to all of the evidence
presented in the case and determine whether an expert witness could have altered the
considerations and outcome of the jury. See Dieter v. Florida, 759 Fed. App’x 885, 891-892 (11th
Cir. 2019). Mr. Edwards has not shown what any results of a chemical profiling analysis would
reveal, nor has he demonstrated the relevance or significance that this potential evidence may have
on establishing the defense he claims Mr. Balarezo should have pursued. Similarly, Mr. Edwards’
claim that “[t]he jurors would have accepted the [drug trafficking] expert[‘s] opinion” is
speculative and conclusory. Def.’s Mot. at 34.
The evidence presented at trial would have made the need for an expert witness or
22

Case l:ll-cr-00129-CKK Document 1045 Filed 11/21/19 Page 23 of 29

independent testing insignificant. The Government presented video footage of Mr. Edwards
opening a suitcase and counting what appeared to be kilograms of cocaine. Probation Pre-Sentence
Investigation Report at 7, ECF No. 716. The video evidence also showed Mr. Edwards opening
the packages and breaking them down into smaller quantities. Id. In addition, Mr. Edwards’
fingerprints were found on the food processors recovered from the trailer and items, recovered
during the search of the storage unit, which would have been used in processing and packaging of
the drugs.

Id. at 9. Mr. Edwards does not demonstrate how an expert or independent testing

would have made a difference.
The Court shall deny Mr. Edwards’ ineffective assistance of counsel claims regarding Mr.
Balarezo’s failure to call an expert witness and conduct independent testing because Mr. Edwards
has not shown that it constitutes “deficient performance” under Strickland. The record indicates
that Mr. Balarezo’s pursuit of a different defense than the one Mr. Edwards is now claiming that
Mr. Balarezo should have employed was reasonable given the circumstances of the case. Mr.
Edwards does not point to any evidence that the defense was unreasonable or not constitutionally
adequate. Accordingly, because Mr. Edwards provides mere speculative arguments to support his
claim, and his ineffective assistance of counsel claim based on counsel’s failure to call an expert
witness and conduct independent testing cannot proceed.
D. Failure to Argue Suppression of Evidence from Wiretaps
The Court now turns to Mr. Edwards’ claim that Mr. Balarezo rendered ineffective
assistance of counsel in the representations Mr. Balarezo made to this Court during Mr. Edwards’
attempt to suppress information obtained by the Government through wiretaps. Mr. Edwards
claims that he “continuously stressed to his counsel that the government and investigating agents
were in violation of multiple, if not all, of the Title III requirements.” Def.’s Mot. at 40. Mr.
23

Case r.ll-cr-00129-CKK Document 1045 Filed 11/21/19 Page 24 of 29

Balarezo “addressed the Title III violation but narrowed the subsequent argument down to [18
U.S.C. §] 2518(l)(b)(iv) [the naming requirement].” Id.

This was error, according to Mr.

Edwards, because “[it] prevented the District Court from assessing the full scope of the deliberate
violation perpetrated by the investigating agents [sic] omissions in their affidavits to procure the
authority to wiretap.” Id. at 41. Mr. Edwards stresses that “[this Court] was not privy to the
information that was determined should have been provided to fully be aware of the circumstances
based on Title III requirements for authorization,” and that Mr. Balarezo is to blame. Def.’s Reply
at 17, ECFNo. 1017.
Mr. Edwards relies on the Court of Appeals’ line of questioning during oral arguments on
his direct appeal, its written opinion, and what Mr. Edwards’ characterizes as the Government’s
policy change going forward with the naming requirement of 18 U.S.C. § 2518(l)(b)(iv). See id.
at 42-43. Mr. Edwards claims that “the [D.C. Circuit] panel judges in their written opinion, stated
that the government could have and should have included the omitted information in the wiretap
affidavits . . . .” Id. at 42. He also states that the Government “since this investigation [changed]
their policy and now name all persons believed to be involved in the crime.” Id. Mr. Edwards
concludes that, as a direct result of Mr. Balarezo’s ineffectiveness in arguing that the Government
did not meet the standards for the naming requirement, “neither this or the appellate Court provided
an opinion with regard to the inclusion of the omitted information, [which violated Section]
2518(e).” Id. at 43.
Mr. Edwards’ reliance on the Court of Appeals’ decision as evidence that Mr. Balarezo
was ineffective is misguided. This Court and the United States Court of Appeals for the District
of Columbia Circuit found Mr. Edwards’ arguments on the suppression of the wiretaps to be
unconvincing. Gov’t Opp’n at 30-31, ECF No. 1001. While the Court of Appeals did state that
24

Case l:ll-cr-00129-CKK Document 1045 Filed 11/21/19 Page 25 of 29
/

“the Government did not provide the authorizing court with as complete a picture of its
investigation as it could have,” the court found that Government’s omissions “were not material
to Title Ill’s necessity requirement” and that it “provided the bare minimum necessary to comply
with Title III.” United States v. Williams, 827 F.3d 1134, 1149-50 (D.C. Cir. 2016). To find that
the Court of Appeals required the Government to provide more information than it did in its
affidavits — from the Court of Appeals’ language that it “could have” — would misstate its
holding. Mr. Edwards does not point to anything that Mr. Balarezo could have done to warrant a
different outcome other than the fact that it “was not until [Mr. Edwards’] pro se motions to the
Court of Appeals that a judge considered the [Government’s] deliberate omissions.” Def.’s Mot.
at 41.
Even if Mr. Balarezo failed to include the arguments — which Mr. Edwards claims he
urged Mr. Balarezo to argue before this Court — in his pre-trial suppression pleadings, Mr.
Edwards cannot prove that he was prejudiced. The Court of Appeals did consider this argument
and rejected it. Williams, 827 F.3d at 1149-1150. Under the Strickland prejudice analysis, Mr.
Edwards cannot prove that but for Mr. Balarezo’s failure to include an argument on the omitted
information in the wiretap affidavit, the result of the proceeding would have been different.
Strickland, 466 U.S. at 669. The Court of Appeals explicitly stated that it would not have been.
Williams, 827 F.3d at 1149. Similarly, the fact that the Government changed its policy does not
warrant a different outcome. Accordingly, the Court denies Mr. Edwards’ claim of ineffective
assistance of counsel during Mr. Edwards’ attempt to suppress evidence obtained from the
Government’s use of wiretaps.
Failure to Challenge the Sufficiency of the Superseding Indictment
The Court will now address Mr. Edwards’ contention that Mr. Balarezo was ineffective for
25

r

Case l:ll-cr-00129-CKK Document 1045 Filed 11/21/19 Page 26 Of 29

■i

failing to challenge the sufficiency of his indictment. Mr. Edwards claims that the “indictment
does not list any means and manner or overt acts to with [sic] [he] is alleged to have committed
the offensefs].” Defi’s Mot. at 48. Mr. Edwards argues that “[t]he indictment should have listed
a directive of notice of means and manner based on a conspiracy [and the Section 924(c) charges]”
and that this defect in the indictment “blind-sided” Mr. Edwards and prohibited him from
developing a defense. Id. at 49.
The Government interprets Mr. Edwards’ argument as a claim that Mr. Balarezo should
have asked for a bill of particulars. Gov’t Opp’n at 31. It argues that a bill of particulars was not
necessary because it provided Mr. Edwards with “extensive discovery.” Id. at 32. Additionally,
Mr. Edwards fails to “identify with any precision in what way he was prejudiced by the level of
specificity contained in the indictment.” Id. The Government also argues that Mr. Edwards does
not show how Mr. Balarezo was deficient or demonstrate how his case was prejudiced for failing
to request a bill of particulars. Gov’t Opp’n at 32-22, ECFNo. 1001.
Mr. Edwards responds by arguing that “there was no indication in the indictment that'[he]
was involved in the sale of crack cocaine nor involved in any of the processing of crack cocaine
J

after being sold through the form of powder.” Def. ’s Reply at 18, ECF No. 1017. Mr. Edwards
takes issue with the fact that he was charged, .under the superseding indictment, with conspiracy,
to distribute cocaine, while the Government tied him to a conspiracy to distribute cocaine base at
trial. See id. at 18-20. He proffers that powder cocaine, and not cocaine base, was seized during
the time of his arrest. Id. at 19.
Mr. Edwards claims that [Mr. Balarezo] should have sought and procured statements of
facts and circumstances directly that would have [allowed] [Mr. Edwards] to advance a defense .
. . .” Id. at 19. Mr. Edwards explains that he “did not specifically identify the use of [the bill of
26

j|

Case l:ll-cr-00129-CKK Document 1045 Filed 11/21/19 Page 28 ot 29

was clearly prejudiced by the cumulative impact of the multiple deficiencies.” Id. at 51.
The Government argues that Mr. Edwards has “cumulat[ed] meritless arguments [that]
does not transform them into something they are not.” Gov’t Opp’n at 34, ECF No. 1001.
Specifically, the Government states that Mr. Edwards has not shown that Mr. Balarezo performed
his duties under an actual conflict of interest or engaged in deficient representation that prejudiced
Mr. Edwards. Id. It further states that “[Mr. Edwards is] unable to show how his lawyer could
have been ineffective by aggregating meritless claims.” Id.
In response, Mr. Edwards claims that he “has pleaded, presented evidence, and argued
applicable law to demonstrate that his conviction and sentence is violative of his Sixth and Fifth
Amendment constitutional right [sic].” Def.’s Reply at 21, ECF No. 1017. He goes on to state
that “[t]he government offers no facts nor support [to] rebut the conflict [claim] and their
contentions as to the remaining claims are without merit.” Id. at 20.
The U.S. Court of Appeals for the District of Columbia Circuit has not yet had an
opportunity to decide whether a cumulative prejudice analysis is appropriate under the Strickland
standard on habeas review. Other sister circuits are split. Compare Williams v. Washington, 59
F.3d 673, 682 (7th Cir. 1995) (cumulative prejudicial analysis allowed), Harris ex rel. Ramseyer
v. Wood, 64 F.3d 1432, 1439 (9th Cir. 1995) (same), Rodriguez v. Hoke, 928 F.2d 534, 538 (2d
Cir. 1991) (same), with Fisher v. Angelone, 163 F.3d 835, 852 (4th Cir. 1998) (not allowed),
Wainwright v. Lockhart, 80 F.3d 1226, 1233 (8th Cir. 1996) (same).
The Court need not address whether a cumulative prejudice analysis is appropriate in this
case because Mr. Edwards has not demonstrated that he was prejudiced by any of the claims he
makes. Because Mr. Edwards has failed to show that even one of his claims of ineffective
assistance of counsel involved prejudice to him, the Court shall deny Defendant’s claim that the
28

Case l:ll-cr-00129-CKK Document 1045 Filed 11/21/19 Page 29 of 29

f
cumulative impact of Mr. Balarezo’s actions or omissions warrant Mr. Edwards relief.
IV. CONCLUSION
For all of the foregoing reasons, the Court shall DENY Mr. Edwards’ [975] Motion to
Vacate, Set Aside, or Correct Sentence pursuant to 28 U.S.C. § 2255. Furthermore, no Certificate
of Appealability shall issue from this Court. To the extent Mr. Edwards intends to file an appeal,
he must seek a Certificate of Appealability from the United States Court of Appeals for the District
of Columbia Circuit in accordance with Federal Rule of Appellate Procedure 22.
An appropriate Order accompanies this Memorandum Opinion.

/s/
COLLEEN KOLLAR-KOTELLY
UNITED STATES DISTRICT JUDGE

29

r
J&izxizz (Eanvi nf JVppB&lgj
For The District of Columbia Circuit

No. 19-3098

September Term, 2019
1:11-cr-00129-CKK-1
Filed On: August 7, 2020

United States of America,
Appellee
v.
■ Gezo Goeong Edwards, also known as Zo, also
known as Gezo Edwards,
Appellant

BEFORE:

Henderson, Tatel, and Katsas, Circuit Judges
ORDER

Upon consideration of the motion for a certificate of appealability (“COA”), the
opposition thereto, the reply, and the supplement to the reply, it is
_
ORDERED that the motion for a COA be denied and the appeal be dismissed.
Bacausa appellant has not made “a substantial showing of the denial of a constitutional
473 483 84^2000)2253^2^’ ^ C°A 'S warranted' ^ Slack v. McDaniel. 529 U.S.

uPursuant to Dc- Circuit Rule 36, this disposition will not be published. Because no
GOA has been allowed, no mandate will issue.
a

Per Curiam

FOR THE COURT:
Mark J. Langer, Clerk
BY:

/si
Manuel J. Castro
Deputy Clerk

iv

UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA

UNITED STATES OF AMERICA
v.
GEZO GEONG EDWARDS
Cr. No. 11 - 00129 - 1 (CKK)

PETITION FOR A CERTIFICATE OF APPEALABILITY
PURSUANT TO 28 USC 2253(c)(1) - (2)

/

Now comes, Petitioner -

GEZO GEONG EDWARDS, in pro se capacity seeking this

Honorable Court1s authorization of a certificate of appealability for the denial
of his issues contained in his petition pursuant to 28 USC 2255 from the, United
States District Court for the District of Columbia, and avers the following in
support:

It appears that the, United States District Court for the District of Colum­
bia, is claiming that based on a merit review it denied Petitioner 's claims of in­
effective assistance of counsel that fell into six general categories, Petition­
er actually numerated eleven iissues.

Date of denial, November 21, 2019.

It fur-

ther appears that on that said date, the District Court also denied a certificate
of appealability.

*

LEGAL REQUIREMENT:

A habeas

Petitioner s appeal may not be taken to the Court' of Appeals
un­

less he obtains a certificate of appealability.

28 USC 2253(c)(1).

To obtain

a COA, the applicant must make a substantial showing of the denial of a constitutional right. 28 USC 2253(c)(2). A substantial showing is a demonstration
that reasonable jurists could debate whether ... the petition should have been
resolved m a different manner or that the issues presented were adequate to
deserve encouragement to proceed further.

Slack v. McDaniel 529 US 473, 484.

120 S.Ct. 1595, 146 L.Ed.2d 542 (2000) (quoting Barefoot v. Estelle 463 US 880
895 n. 4, 103 S.Ct. 3383, 77 L.Ed,2d 1090 (1983).)
After Slack v. McDaniel 529 US 473, the Supreme Court changed course, in
part, on how courts were determining when to issue a COA, and found that many
courts of appeal decisions had denied applications for a COA only after conclud­
ing that the applicant was not entitled to habeas relief on the merits.

The

Supreme Court put an end to that practice, declaring that a COA is a threshold
question that should be decided without-full consideration of the factual or
legal bases adduced in support of the claims.

Buck v. Davis 137 S.Ct. 759, at

773 (2017) quoting Miller-El v. Cockrell 537 US'322, 336, 123 S.Ct. 1029, 154
L^Ed.2d 931 (2003) (emphases added); see also id. at 338 (the petitioner must
demonstrate that reasonable jurist would find the District Court's assessment
of the constitutional claim debatable or wrong, (emphasis added)); id at 348
(The COA inquiry ask only if the District Court's decision was debatable).
In Petitioner s case he will demonstrate that reasonable jurist would find
the District Court s assessment of his constitutional claims debatable and

2

ISSUE:
#

1)

Petitioner

Presented a claim that his

ineffective during the postproperty seized subject of
payment transferable for attorney fee.
The motion filed by Petitioner'
s counsel was
suppose to be
presented for Petitioner
to regain possession of
untained assets
that the government had
illegally seized based on
indictment

pre-trial criminal

sets arrived from
seizure was

the as­

conduct alleged in their

The government1s

pursuant to 21 USC 853.

Hie Supreme Court has
are two probable cause
findings

required of 21 USC 853(f);
mitting forfeit
tion to that crime,

committed an offense perproperty at issue has the requisit
connecThe courts have uniformly held

reshold showing that probable
cause is lacking as
requirement.

gglgyj^JJnited States 11/, S-

Ct- 1090 (201 S')

citing 21 USC 853(a) (the lower
courts have generally provided
a hearing to any indicted defendant
seeking to
lift an asset restraint
to pay for a laxvyer
uniformly allowed the defendant
to litigate the
whether probable
cause exists to believe that the
assets in dispute are traceable
or otherwise
sufficiently related to the crime
charged in the indictment); also
see: United
States v^SgSU15K3d_88,
367 m Aon
• DC 320 (n.C. Ci£i_2005^ (probable
cause is an objective standard
requiring an analysis of the
totality of the circumstances).
:rfi°UiSel'lsub"is=i™/™otion to the Coart in

return of Petitioner’s assets!
S counsel submitted

a motion to the Court that

SUPP°rt °f lssulnS

in its context
a declaration that he had Petitioner
sign stating that, beyond
money seized, I do not have
any available funds to
Pay attorney Balarezo's

3

retainer.
(B)

Assets originally
1)

Petitioner

seized by the government:

s resident located at 1219 Elm Grove

in US currency; 3) $6,380.00 in US

Circle; 2) $360,009.00

currency; 4) $16,538.60 held at TD Bank NA,
in the name of Lunar
Funding Group, LLC.; 5) $6,064.90 held at TD Bank NA, in
the name of The Gueong Edwards Family Trust; 6)
One platinum ladies diamond engagement ring; 7) One ladies Rolex President,
oyster perpetual datejust watch;
8) Petitioner 's wedding ring; and 9) $1000.00
in cash from Petitioner s person.
(C) Petitioner

trict Courtrtwon2ses"demonstrtaSnrf Snt i°,? USC 2255> t0 the De­

lation provided to attorney:

8

threshold

United States Z^jhgpld, Ltd. 521 F.3d 411 (pc,

based on infer-

Cir. 2007) held a 853 pre-

trial hearing and submitted information as

a threshold review via; 1) status
as a potential beneficiary of a trust, 2) his lack of other
sources of income,
3) his liquid and
non liquid assets (including cars), 4) his wife 's income, and
and assets held in the name of the dependants.
/
United States v

^nor 794 F.Supp.2d 143 (P.D.C. 2011^, even though its
focus was in part based on prosecutorial
misconduct by alleging that the govern­
ment deliberately froze
assets to prevent obtaining counsel of choice Emor submitted information via; 1) lack of
any income or investment, 2) that his spouse
was not employed, 3) that he has
six dependants, and 4) that he only has between $22,000 and $50,000 in cash on hand.
(D>

to toturnrunta!nS assets^and o“^7“°" as a *reshold revxew

pursuant to 28 USC 2255 to the District Court^ lnformatlon ln his motion
was
to trial.

attorney Harry Tun who re­

in event of a plea deal and $100,000 if the case went
However, Tun took on Petitioner
s case and was paid the .$40,000 but

4

r

did not tell Petitioner that he was investigated for fraud, admitted responsib
ility, and stipulated to a santion whereas he could not practice law.
For resons unknown to Petitioner at the time, Tun previously introduced Petitioner

to

Balarezo.

After receiving the $40,000, Tun returned with Balarezo, again, and
told him of the sanction and based on their (Tun and Blarezo) prearranged
agreement, unknown to Petitioner, gave Balarezo $20,000 of the $40,000.

2)

Petitioner's wife was employed, who paid for the retainer for Tun via

taking out her 401K and credit cards.

Petitioner and his wife were only married

for 5 months and had no joint income or assets.
3)

Petitioner has two' children

one whom he pays child support in the

amount of $290,00 per month, and the other he shares joint custody.
4)

The government froze Petitioner s house located at 1219 Elm Grove Circle,

that was purchased in the year 2005, which purchase is several years prior to
the allege conduct charged in the indictment,

Tie government did not set-

forth a claim that the Elm Grove residence was subject to forfeiture based
on
the charges profited from the indictment’s alleged conduct, they simply froze it.
The Elm Grove residence has a mortgage of $1800.00 per month.
5)

Petitioner owned 2867 Mayfield Ave. in Baltimore, and 5200 Dole St.

in Capital Heights, prior to his arrest,

Sometime afterwards, Petitioner no-

longer owned those properties but was still saddled with mortgage payments of
$500COO and $1500.00 per month, respectively.
6)

Petitioner had a trust fund set up where his children were the benefici-

aries of $6,000.00 in the account; and Lunar Funding Group, LLC account where
Petitioner was the sole beneficiary of $16,000.00, which were both frozen.
7)

The government seized at the time of arrest, Petitioner's wedding ring

appraised at $6,000.00 and $1000.00 in cash, $6,380.00 in cash, and Petitioner's

5

wi f e' s diamond engagement ring appraised at $29,400.00.
8)

Petitioner's lack of other sources of income.

As to this information, Petitioner s presentation in his motion pursuant to 28
USC 2255, directly state that his counsel was aware of this information, as state• ments are found on pages 8 & 9, of the 2255, and directly state that he told his
counsel of the entire circumstances of his financial
found on pages 11 & 14 of the 2255.

was pur-

chased six years prior to the indictment and four years prior to any act. alleged
in the indictment.

Petitioner's wedding ring, $1000.00 found on his person,

$6,380.00 found in his residence, and his wife's diamond engagement ring were
all assets arrived via legal means at which Petitioner could show and provided
his counsel with information of the legal resources to demonstrate that they
were untainted assets.
(E)

The District Court's conclustion pre-trial of the hearing pursuant to
21 USC 853:

The Court found that- Petitioner failed to make the threshold showing that
he lacks sufficient assets to pay his counsel.

(F>

^ ^ C°ntained “ Ms m°tion

The District Court acknowledge that its order denying the hearing during the
pretrial 21 USC 853 inquiry was based on its contentions that Petitioner did not
provide any additional information regarding his assets, liabilities, sources of
income, or other information relevant to his ability to retain legal counsel other tnan merely stating that he did not have any available funds to pay Balarezo's
retainer. However, Petitioner's counsel is the legally trained advocate who
snould have known what information dis necessary to succeed in that type of hearing, and moreover, had the information to provide the Court for its evaluation
but completely omitted the information.

6

The District Court is conceding that

f

merely stating that Petitioner did not have any available funds to pay counsel's
retainer was not enough information to succeed in that type of hearing where a
defendant is moving the Court to have the government release its hold on untainted assets.
The Court's denial of this claim in the 2255 also state that subsequently,
Petitioner noted, upon inquiry of the Court, that Balarezo was his counsel of
choice.

However, that observation has absolutely nothing to do with whether Bal-

erzo was ineffective.

The District Court, denial of this claim in the 2255 goes

on and contend that Petitioner does not specify, with any degree of particular­
ity, the exact circumstances of Balarezo's failure to include the now - identif­
ied financial information.

And that, the Court is left to speculate because

Petitioner does not indicate whether, Balarezo - counsel, asked Petitioner for
the financial information, whether that information was readily available at the
time, or whether Petitioner told Balarezo himself, amongst other relevant fact-

ors.

The Court went on and stated that without this information, the Court will

not engage in speculative arguments and supported its conclusion by case law in
United States v. Morrison 98 F.3d 619, 625-26 (DC Cir. 1996), highlighting that

summary denial is appropriate when an ineffective assistance claim is speculafive.

However, the District Court's reason for the denial of the claim is

totally contrary to the facts contained in Petitioner's 2255 because, in fact,
Petitioner stated that counsel was aware of the information, as statements are
shown on pages 8 & 9 of the 2255, and directly- states that he told his counsel .
about the information, as is shown on pages 11 & 14 of the 2255.
The District Court goes further, and contends that, assuming, arguendo
that counsel's omission of the now - identified financial information does con­
stitute deficient performance, Petitioner failed- to show that counsel's omission
was prejudicial.

The District Court contended that it is not reasonably probable

7

r

that but for counsel's omission the result of the proceeding would have been dif­
ferent .

However, the government originally seized Petitioner's residence locat­

ed at, 1219 Elm Grove Circle, but later determined that it was untainted because
Petitioner had purchased it six years prior to the indictment and four years
prior to any allegation contained in the charging offenses.

The government then

abandoned their consideration of the residentce being tainted assets but never
lifted the freeze on the property,

The government had absolutely no legal gr-

ounds to hold the residence.
' The Supreme Sourt in Sila Luis v. United States 136 S.Ct. 1083; 194 L.Ed.2d
■256; 2016 US LEXIS 2272; 84 US L.W. 4159 (2016), held that untainted assets dif­
fers from the allege drug seller's proceeds, and went on to direct that it also
rejected a notion that untainted assets are subject of pre-trial restraint so
long as the property might some day be subject to forfeiture,

And that, pre-

trial restraint under what is forfeitable upon inquiry mostly depends on who has
the superior interest in the property at issue; quoting Caplin & Drysdale, supra,
at 626-628, 109 S.Ct. 2646, 105 L.Ed.2d 528 (1989); Monsanto 491 US at 616, 109
S.Ct. 2657, 105 L.Ed.2d 512 (1989).

There is a reasonable probability that but

for counsel’s omissions the results would have been different.

A reasonable pro­

bability exist that the freeze on the Elm Grove Circle residence would have be­
en lifted.

Moreover, the District Court totally omitted the presentation of

this residence from their evaluation of the claim contained in the 2255.

More­

over, as evident, Petitioner's wedding ring that was appraised at $6,000.00 was
given to him by his wife whom was gainfully employed and not subject to any­
thing concerning the indictment.

The government adamantly sought seizure of

Petitioner s ring which was not purchased by him nor any source connected to
the case, but was also abandoned by the government pursuant to the seizure of
it along, with $1000.00 found on Petitioner's person after determining that they
were untainted.

6

f

The Court's denial of this claim in the 2255, also reference the fact that
the jury found the $6,380.00 in US currency found at the residence and the plat­
inum ladies diamond engagement'ring to be untainted.

But, the Court contended

that Petitioner failed to show exactly what his counsel could have relied upon
pre-trial to demonstrate that the government lacked probable cause.

It is hard

to understand what procedure the District Court has analized or whether it read
the entire contents of the 2255, but, again, Petitioner provided his counsel with
legal varification of his and his wife's financial sources and listed them in
the 2255 as an example, in that, he had two residences that were rental and that
his wife had a steady substantial income of over $200,000.00 per year.
clearly stated on page 11 of the 2255.

This is

However, Petitioner's counsel submitted

a motion with a one sentence presentation for a hearing pursuant to 21 USC 853
to show that the government lack probable cause as to the requisite that the
property seized is connected to the crime.

The statement made is as follows: Be­

yond the money seized, I do not have any available funds to pay attorney Balarezo's
retainer.

That statement has absolutely nothing to do with a demonstration that

the government lack probable cause that the property seized is connected to the
crime.

Petitioner's 2255 briefing demonstrates that his counsel could have re­

lied on more credible information and was provided that information by Petition­
er.
The District Court ended their review of this claim by stating; absent any
evidence that probable cause was lacking as to the identified assets, which Pet­
itioner does not identify either in his Motion or Reply, counsel's failure to in­
clude Petitioner's financial circumstances in the initial Motion to Return Funds
did not prejudice him.

That conclusion is totally contrary to what Petitioner

presented in his 2255, Petitioner provided his counsel with information based
on the totality of the circumstances to present

9

a probable cause during the

inquiry of a hearing pursuant to a 853 seizure.
The court also referenced the fact that afterward, Balarezo continued to
represent Petitoner and that his family paid the remaining balance.

However,

Petitioner's family had already spent $40,000 and did not initially have the
funds to start back over with another attorney, did not know.that Balarezo was
functioning ineffectively, nor that Petitioner was the victim of fraud and that
Balarezo was a'participant in that fraud - which is briefed below.

Moreover,

Balarezo was not Petitioner's counsel of choice to proceed to trial,

Petition-

er specifically stated in the 2255, that he will need access to his assets to
pay for his (Balarezo) pre-trial services and to pay for another attorney who
will pursue actions against Tun and proceed to trial.

See: Page 15 of 2255.

Petitioner has demonstrated that reasonable jurists could debate whether
the petition concerning this issue should have been resolved in a different manner and that the issue presented is adequate to deserve encouragement to proce­
ed further.
/

SECONDLY:
The District Cpurt next addressed Petitoner's claim of counsle's ineffective­
ness in the post-trial criminal forfeiture proceedings.

The jury found that Pet-

itioner was not guilty as to acquiring the $6,380.00 illegally, and hung as to
whether the woman's engagement ring was procured from ill-gotten funds,

Pet-

itioner's counsel did not move the Court for return of the property after the
jury s verdict.

Moreover, Petitioner's counsel did not move the Court to return

the assets seized by the government but not listed in their forfeiture nor release the property - the property is listed above.
The District Court addressing counsel's actions listed various occasions,
and dates, that the government moved the Court via Motion for Preliminary Order
of Forfeiture, a second order of forfeiture, and when the government could not

10

t

locate any property per due diligence that was directly forfeitable property as
direct proceeds from the conspiracy, they then submitted an amended order of
forfeiture to include substitute assets.

The order stated that the government

was amending the previous order granted by the Court to now include the ring and
the $6380.00 as substitute assets.

Apparently, the District Court had appoint­

ed an attorney for this proceeding under the consideration of whether Petitioner
will concede to the forfeiture or oppose it.

However, Petitoner's trial counsel

was ineffective for not moving the Court post-trial for the return of that pro­
perty, as well as Petitioner's wedding ring and $1000.00 seized from his person
that was not listed as forfeitable property nor did he move the Court to lift
the freeze on his residence located at Elm Grove Circle that was pruchased six
years prior to the indictment and four years prior to any allegation contained
in the indictment.

This claim is contained in issue ten numerated in Petitioner's

2255 whereas it states that based on entering into representation based on the
conflict of interest counsel continued with the pattern and failed to move the
Court to order the return of property or request that the government release it.

2)

The Conflict of Interest:

Petitioner presented a claim in his 2255 that he was the victim of fraud
perpetrated by his original counsel, Harry Tun, via mis-appropriation of funds
for legal representation, which he conspired with Petitioner's trial counsel to
gain the initial payment of $40,000.00.

Tun represented that he would be able

to represent Petitioner conflict free in his criminal litigations for $40,000.00
in the event of a plea and $100,000.00 in the event that the case went to trial.
Petitioner paid the initial $40,000.00 and was to. pay the remaining $60,000.00
through the course of the proceedings, to Tun.

11 '

Tun brought

Balarezo - Peti-

{

;

/

/

\.

V

;

#

4

tioner's trial counsel

to one of his meetings with Petitioner at a federal

holding facility where he was being held pending trial.

But at the time Pet­

itioner did not know who Balarezo was nor why he was there.

Tun came on sub­

sequent meeting alone, but then brought Balarezo back again and notified Peti­
tioner that he was sanctioned and restricted from practicing law and that Balar­
ezo would be handling the up-coming proceeding.

However, unknown to Petitioner,

Balarezo.-and Tun knew that he was going to be sanctioned from practincing law,
and Balarezo knew that Tun was accepting Petitioner's money under false repre­
sentation.
er.

Balarezo conspired with Tun to obtain the $40,000.00 from Petition­

Petitioner did not hire Tun as a scout for an'attorney.

Tun and Balarezo

had been conspiring about the'$40,000.00 from the beginning of Tun's initia­
tion of the fraud - unknown to Petitioner at that time.

It was not until after

Tun informed Petitioner of his sanction, that he .became aware of some sort of
pre-arrangement between Balarezo and Tun involving the $40,000.00.

Moreover

at that time Petitioner also did not know what Tun was sanctioned for.
Petitioner' told Balarezo that he wanted to pursue actions against Tun,
which Balarezo told Petitioner that he will not pursue any action against Tun,
would not tell Petitioner what Tun was sanctioned for, and that Petitioner was
responsible for the remaining $20,000.00.

Petitioner then told Balarezo that

he read a case whereas it stated that he could file a motion to have his un­
tainted assets returned to him.

Petitioner told Balarezo that he wanted him

to file the motion so that he could pay his retainer fee, and hire another at­
torney to pursue actions against Tun and handle his trial proceeding.
15 of 2255.

Balarezo told Petitioner that he would file the motion.

See: Page
Balarezo

filed the motion in a fashion that he knew would not succeed because pursuing
actions against Tun would mean pursuing actions against the fraud that he was
involved in from the beginning.

Balarezo did advance his interest to the de­

triment of Petitioner, as well as, advancing■the interest of Tun.
12

Later, Pet-

#

itioner conducted his own independant investigation into Tun and what occurred
as to why he and Balarezo entered into the initial conspiracy concerning the
$40,000.00 and found the following:
Previously, Tun had filed an amendment affidavit to the Board on Pro­
fessional Responsibility on March 10, 2011 for a negotiated dicipline.
The parties had filed an earlier petition for negotiated discipline, no.
09-BG-804, that was rejected by .the court and Board on Professional Re­
sponsibility. The earlier petition would have resulted with Tun being
suspended for nine months, which was determined to be inadequate based on
the number of violations and the extended time, period during which the vio­
lation took place.
After the March 10th submission, the Board held a hearing which Tun
reaffirmed his admission to all factual allegations, acknowledged that
his actions violated the Rules of Professional Conduct, and stated that
he understood the ramifications of the proposed sanction. Tun had ad­
mitted his guilt of defrauding the courts by double billing during tiis
tenure of court appointed representation. In violation of Rules of Pro­
fessional Conduct: Rule 1.5(a) & (f), by charging a fee that was pro­
hibited by law and therfore per se unreasonable; Rule 3.3(a)(1), by making
false statement of material fact or law to a tribunal; Rule 8.4(c), by
engaging in conduct involving dishonesty, fraud, deceit, or misrepresenta­
tion; and. Rule 8.4(d), by engaging in conduct that seriously interfered ■
with the administration of justice.
Investigations revealed that Tun sought payment for the same period
of time for two or more clients on 162 occasions.

Trie District Court's reasons for denying the claim:

'The District Court reviewed Petitioner's initial 2255, the government's re­
sponse and Petitioner's reply to the government's response and in short con­
cluded the following:
1) It was not Balarezo's responsibility to attempt to obtain the remain­
ing $20,000.00 from Tun instead of obtaining payment directly from his

13

t

client; 2) The District Court stated that the government argues that it
does not make any sense for Balarezo to purposefully sabotage his own
client's pleading when payment of his retainer was allegedly conditioned
on the success of that pleading; 3) That Petitioner proffers no evidence
or further explanation as to the claim that Balarezo was attempting to
cover-up his own misconduct when he submitted the Motion to Release Funds
nor that Balarezo advanced his own and Tun' s interest to the detriment of
Petitioner; 4) That there is- no indication that Balarezo was a party to
the agreement between Petitioner and Tun; 5) That five months after Tun
withdrew from the case Petitioner signed and submitted an affidavit to
the Court stating that Balarezo was his counsel of choice; 6) The Court
also noted that it is not clear from the record if Tun was Petitioner's
original counsel because he and Balarezo filed notices of appearance at
the same time; and 7) The District Court also stated that the two attor­
neys were not affiliated with a single law firm.
The District Court assessment of this claim in totality is debatable,
highly erroneous, and should have been handled in a different manner:
The District Court allege that it was not Balarezo's responsibility to
/e

attempt to obtain the remaning $20,000.00 front Tun instead of obtaining pay­
ment directly from his client.

However, Balarezo at that time when he and Tun

initially conspired to defraud Petitioner out of the $40,000.00, Balarezo was
not Petitioner's counsel of choice — he was Tun's counsel of choice.

Tun and

Balarezo had already made arrangements to defraud $40,000.00 from Petitioner,
prior to Petitioner's discovery of the fraud. . Tun and Balarezo's fraud had
had already been completed.

Petitioner did not know, in what capacity Tun and ■

Balarezo were actually connected as lawyers, their initial objective was the
$40,000.00 and the up-coming proceeding.

The Court even noted that it was not

until over five months after Tun withdrew7 from the case that Petitioner signed
an affidavit to the Court stating that Balarezo was- his counsel of choice.

By

that time Petitioner had already spent $40,000.00' and did not have anymore funds

14

r
to start over with another attorney,..and, moreover, Balarezo was then communic­
ating with Petitioner's family, whom had made the original payment, and was try­
ing to come up with more funds for Petitioner's trial.

Petitioner and his fam­

ily did not at that time know that fraud was involved and how it was initiated.
The District Court also stated, relying on the government's contentions,
that it does not make any sense for Balarezo to purposefully sabotage his own
client's pleading when payment of his retainer was allegedly conditioned on the
success of that pleading.

However, Petitioner had already paid the $40,000.00

to the original attorney that he chose to represent him.

Tun and Balarezo in­

itial objective of the fraud was the $40,000.00, which the scheme's payment had
been completed.

Balarezo was suppose to file the. motion so that Petitioner

could retreive his untainted assets so that Petitioner could find another at­
torney who would pursue actions against Tun and handle Petitioner's trial.

Aft­

er that hearing Balarezo was suppose to be out of the picture, which was made
clear to him by Petitioner.

Clearly there was never any intention for Tun to

give Balarezo the entire $40,000.00, there was no sabotage to that payment, it
was completed.

The District Court's, adoption of the government's contention

that it makes no sense that Balarezo would purposefully sabotage that particular proceeding is actually contrary to common-sense of an analogy to this issue.

What makes no sense is how anyone could come up with a view that it was

possible that Tun charged a client, $40,000.00 if the case resorted in a plea
and $100,000.00 if it went to trial, make visits to the client in all efforts
and contentions to proceed — just to give up the $40,000.00 to another lawyer
who the client did not know, nor hire,

Balarezo knew that, at that time, he*

was not hired by Petitioner, that Petitioner did not know who he was, and that
there was no additional $20,000.00 to be had from Tun.

15

Balarezo had to know

#

about the position in its entirety that he was .involved in and why.
The District Court further claimed that the two attorneys were not affiliated with a single law firm,

However, nobody but the District Court is making

that claim, and, therefore, it appears that the Court has inserted itself in
the investigative process outside of what was presented for its evaluation.
There has been absolutely no facts presented by the govememnt on the path taken
by Tun to bring Balarezo into his scheme.

The only facts presented are within

Petitioner's claim in the initial 2255 and the reply to the government's re­
sponse.

in fact, the government motioned the District Court for an extension

of time specifically to procure an affidavit from Balarezo, which the Court
granted, but

the government did not provide the affidavit nor explain for the

bases of the extension why it did not provide an affidavit,

The Court also

noted that it is not clear from their record if Tun was Petitioner's original
counsel because he and Balarezo filed notices of appearance at the same time.
However the Court's observation would indicate that Balarezo was involved at
the beginning stage of the fraud, and, moreover, that the District Court has
concluded in a serious litigation process without any opposing factual bases.
The government thought that it could procure an affidavit from Balarezo to sup­
port an opposition but could not.

Balarezo could not disclaim that Petitioner

did not hire him originally, that it was Tun that brought him in because Tun
was sanctioned and restricted from practicing law and that they conspired about
the $40,000.00 which Petitioner knew nothing about. - Balarezo also could not dis­
claim that he had the information about Petitioner's financial status to provide
for

the 853 hearing because the government had already disclosed the informa­

tion in discovery concerning their seizure inquiries.
Petitioner provided the District Court with exhibits accompanying the 2255
of all relevant discovery in support of each factual bases of each level of his

16

claim oppose to the government's presentation of no facts in support of what oc­
ly

curred.

This issue warranted an evidentiary hearing.

Petitioner has demonstr­

ated that reasonable jurist could debate whether the petition concerning this
issue should have been resolved in a different manner and that the issue present­
ed is adequate to deserve encouragement to proceed further.

3)

Failure to Call Expert Witness and Conduct Independent Testing:

Petitioner presented a claim on the factual bases that his counsel attempt­
ed to pursue a strategy and tactical advance to challenge the government's case
on the weight and origin of the cocaine seized, and that particular cocaine
gathered could have been purchased from sources other than Petitioner's co-defendan t, Bowman.

Petitioner's counsel had evidence from discovery that some of

the cocaine alleged in this case wasn't cocaine at all and was being synthetical­
ly manufactured'here in the United States by Petitioner.

The government also

yc

presented an informer (Brooks) who testified that powder cocaine that he purchas­
ed from Bowman was not usable, and that after notifying Bowman that he was aware that the alleged cocaine was not usable; Bowman was still selling it.

Pet­

itioner's counsel also had evidence that on an occasion, agents had a Cl conduct
a controlled drug purchase, using the Cl's own vehicle; which was against their
normal procedure of assuring that CIs do not switch or tamper with the drugs that
agents seek to purchase.- However, Petitioner's counsel failed to do his own in­
dependent testing or to call his own expert witness, but, instead, attempted to
use the government's expert witness as his source of facts to present his stratgy and tactical advance to challenge the government's case.- Also, to alleviate
the government from going through the procedures of proving their witness's ere-. ■
dentials as being an expert, Petitioner's counsel stipulated before-hand to the

17

*

witness being an expert based on what was provided in discovery.
The government immediately saw what Petitioner's counsel was .attempting to
do during trial on cross-examination and objected to his attempt of trying to
use their expert witness as his own.

The District Court in turn sustained the

government's objection and told Petitioner's counsel that he cannot use the gov­
ernment's witness as his own and if he wanted to present his own witness he has
the opportunity.

A brief of the exchange is as follows:

Q: You're getting ahead of.me.
pies, could that be done?
A: Not by me.
Q:

My question was if you were given two sam-

Can it be done by the DEA?

The Government: Objection, Your Honor. Again, we're getting quite far afield, It does seem relevant to what her testimony was in direct as to
what she did.
The Court: It does seen to be getting a little farther afield at this point.
In terms of the kind, of case that we have, I mean, there might be issues
if this was something where there was an issue of It being imported, but
it isn't.
/

Q: Ms. Wong, is cocaine grown in the United States?
A:

I'm —

The Government: Objection. Again, Your Honor, this is not relevant.
The Court: Counsel, can you approach on the side here. So, this is —
usually they do these testing if they're imported from Kenya or whatever,
but you will presumably want to show is they didn't do a test' to say that
this sample matches up with some other sample in the case to show that it
only came from Mr. Bowman, right?
Petitioner's Counsel: You read my notes.
The Court: So the question is, you know, in terms of whether they were re­
quired to do this, I don't know. Keep your voice down.
The Government: Mr. Balarezo certainly has an opportunity to call an ex­
pert of his own and provide direct testimony of what wasn't done or what

18

4

was done, but this — he's limited to cross-examination in the scope of
what she did do.
The Court: I think we've gone as far as we're going to go in terms of the
questioning that you have, If you want to have some body come in and do
that sort -- you know, you have — in terms of asking what you could have
asked for your own person to basically take these samples, compared them
to see -- I don't know how scientific it is that they can tell that it
came precisely from the same sample as opposed to maybe from the same
country. I frankly don't remember the testimony. But if you want to do
that, you can, but you don't get to turn her into
you have gone as far
as I think I’m going to let you go in terms of why they didn't do it. et
cetera. You got on the record what you want in terms of if they can tell
the samples. And if that's not something they do routinely, I don't see
going any further, If you want to call somebody else that takes if fur­
ther than what is said, you know, you can do the magic things, you're
again trying to make her your own expert and you can t:
In Petitioner's case, as stated above and further exemplified below, there
was expert testimony that particular samples contained adulterants such as an analgesci used to create the numbing effect that's consistant with cocaine, and
substances used by veterinarians which could bulk up what would otherwise be cocaine.

There was also testimony from an informer that when he attempted to turn

the powder cocaine into crack cocaine he discovered that what was suppose to be
the powder cocaine was not usable.

The government also presented an expert to

adduce how and why drug dealers use noti-cocaine substances to rip ofr their unsuspecting customers,

Expert witness Joseph Abdalla testified that drug dealers

use substances that are the same color and texture of cocaine so the person buying it won't be able to tell the difference,

And that they want to find some-

thing that is fine crystalline white powder which is very similar or mimics the
appearance of cocaine.
r»

Petitioner's counsel had previously raised the issue and presented to the
jury that the government chemist cannot say that 9. of the kilos that were seiz-

19

f.

ed from a storage unit and not tested were actually cocaine,

If some of what was

alleged to be cocaine was actually systhetically manufactured here in the United
States by Petitioner, where the distribution is alleged to have taken place, and
not an illegal substance, then it would not have effected the interstate commerce
nexus for federal jurisdiction.

This is why Petitioner's counsel asked the gov­

ernment's expert when he attempted to turn their witness into his own, whether cocaine is grown in the United States.

Petitioner's counsel's statements to the

jury was clear on what he would show and had attempted to try to show,

Likewise,

informer Brooks who testified that when he attempted to turn the powder cocaine
purchased from Bowman, into crack cocaine, but discovered that the powder cocaine
was not usable - then there would be no cocaine base as is defined as crack co­
caine.
The District Court, precluded Petitioner's counsel from advancing his stra­
tegic and tactical defense, in this aspect, leading to challenging the govern­
ment's assessment of the weight of cocaine seized in this case based on the in/

formation that he was aware of because Petitioner's counsel did not obtain and
provide testimony from his own expert.
As to the Cl who agents allowed to use her own vehicle in an alleged con­
trolled drug purchase from Bowman, that particular Cl was a well known drug de­
aler and long-time informant and her significant other was also a well known drug
dealer, whom, she was cooperating with authorities under the status as a GI in
part to gain her significant other's release from jail,

During the alleged con-

trolled drug purchases on several occasions agents lost visual of the Cl, and at
times did not see Bowman during the drug purchase,

The, Cl did not testify and a

vague description of her status was given to the- jury as - she was in hiding at
the time based on an unrelated case.

The government presented their expert agent

to describe the procedures taken when having a Cl conduct a controlled drug pur-

20

*

chase, only as, searching the Cl, providing the Cl with a vehicle and searching
it.

However

it was absolutely no testimony as to why and how thorough those

procedures are conducted, such as, Cl s are often untrustworthy, drug dealer often modify their vehicles and have hidden compartments in their vehicles, secret
substances in body cavities readying to switch drugs during controlled buys,
purchasing drugs from sources other than the target - claiming that it came from
the target, et cetera.
With that particular government witness/expert agent, Petitioner's counsel
had the opportunity to elicit these facts through that witness as it was counsel's
strategic and tactical advancement to draw doubt on the credibility of the CX,
to draw doubt on the credibility of alleged controlled buys based on losing vis­
ual of the Cl on drug purchases, and to draw doubt when agents violated their
normal procedures and allowed the Cl to use her own vehicle during one of the al
lege drug purchases.

Petitioner's counsel failed to elicit these facts from

the agent who had already ventured into the procedure precautions of controlled
drug buys and failed to call his own witness.

The District Court assessment of this claim is debatable, highly erroneous, and should have been handled in a different manner:

The District Court, in short

acknowledge the above facts but claim that the

record indicates that Petitioner's counsel did not commit himself to the defense that Petitioner is claiming.

The District Court states that its assess-

ment is based on Petitioner's counsel's closing arguments whereas he repeatedly cast doubt on the character of the government's witnesses who testified as
to the controlled drug buys and cast doubt on the government's evidence provmg that Petitioner and his co-conspirators agreed to enter into a conspiracy.
the District Court during trial explicitely told Petitioner ' s cocounsel
2i

v*

was in fact attempting to use the government' s witness as his own to snow that
the government did not do 'a test to say that samples match in order to prove
The government and the Court also stopped Pet-

in the United States when he attempted to pursue the defense claimed by Petition­
er.

On that same day it was lengthly testimony about the discovery that there

was some synthetic.manufacturing of cocaine being- done with non-cocaine substanc­
es .
■

'

As to the District Court',

evaluating this claim based.on Petitioner's

counsel's closing argument that appeared contrary to Petitioner's claim, the
District Court precluded Petitioner's counsel from pursuing the defense that he
attempted to initiate unless he presented his own witness, therefore, the clos­
ing arguemtn changed to what counsel was only allowed to present.
The District Court also stated 'as its assessment to the claim that Petition­
er has not shown what any results of a chemical profiling analysis would have re­
vealed, nor has he demonstrated the relevance or significance that the potential
evidence may have on establishing the defense he -claims his counsel should have
pursued.

The District Court's assessment is completely off base,

Petitioner's

claim is that his counsel devised a strategic and tactical defense to demonstrate
that purchases of cocaine could have come from sources other than Bowman and to de­
monstrate the origin of

the cocaine.

Petitioner's--counsel made it clear that

it was his defense but that he did not do his own independent investigation nor
call his own witness.

The District Court also used the language in its assess­

ment (defense he claims his counsel should have pursued), however, it was Pet­
itioner s counsel who devised and actually did pursue the defense but was- pre­
cluded by the Court based on not being prepared to present his own defense.
Moreover, the relevance and significance of the defense was made clear; the orxgm or cocaine and that there was synthetic manufacturing being done in the
United States -

in the area where the allege distribution took place.
22

This

presentation would have been extremely relevant and significant as to the calcula­
tion of. weight of the cocaine seized in this case to be determined by the jury - if
it- could be determined,

Petitioner has demonstrated that reasonable jurist could

debate whether the petition concerning this issue should have been resolved in a
different manner and that the issue presented is adequate to deserve encouragement
to proceed further.
4)

Counsel's Failure to Effectively Represent Evidence to Suppress Information
Gained Through Title III Wiretap Violations:

In Petitioner's case, during'pretrial, Petitioner continuously stressed to

multiple, if not all, of the Title III requirements,
his counsel that investigating agents knew who. he was years prior to directly
initiating an investigation against Bowman

Petitioner's co-defendant.

Agents

in this case had been attempting to connect Petitioner to the supply side or
other investigations prior to using Bowman to pursue him, the same agents h&di
directly accost Petitioner with their accusations, picked up conversations
through outher Title III wiretaps that mentioned Petitioner, and two unsuccess­
ful Title III wiretaps had directly been initiated against Petitioner, all of
which the government deliberately omitted in their Title III application, as
well as omitted relevant pin registers.

However, Petitioner's counsel narrowed

his suppression attempts against the Title III violations down to the necessity
requirements .

Petitioner notified his counsel again that he was still approach-

ing the Title III argument wrong and omitting -the .information of how the violations effected

each particular Title III requirement jsut as the agents and gov-

eminent had done.

Petitioner's counsel again addressed the Title III violation

but narrowed the.subsequent argument down to, 2518(l)(b)(iv), which would not re­
quire the government to disclose the prior- Title 111 applications against. iet
23

itioner, pursuant to 2518(l)(e). .Petitioner-counsel's continued ineffectiveness
prevented the District Court from assessing the full scope of the deliberate
violation perpetrated by the investigating agents omissions in their affidavits
to procure

the authority to wiretap.

However, Petitioner continued to pursue

the issue pro se but the District Court continued to evade the issue.
Finally, during direct appeal in oral arguments, the issue was reviewed
based on Petitioner's pro se information.

All three judges during oral arguments

found that the government could have and should have

included the omitted in­

formation in the wiretap affidavits because it would be keeping with the strict
adherence of the responsibilities imposed by Congress.

Judge Pillard noted that,

when you're in an ongoing investigation, the government wouldn't know what the
authorizing judge would want to know.

Judge Wilkins' noted the government's ap­

proach in this case seems to read the words full and complete basically out of
the statute's language provided by Congress.

The Panel Judges also noted that

they anticipate such information will be provided to the authorizing courts in
the future.

The government noted that since this investigation they changed

their policy and now name all persons believed to be involved in the crime.

The District Court's assessment of this claim is debatable and should have
been handled in a different manner:

The District Court allege that Petitoner's reliance on the Court of Appeals
decision as evidence that Balarezo was ineffective is misguided,

At the same

time, the District Court acknowledge the Court of Appeals statements and con­
clusion that the government did not provide the authorizing court with as complete
a picture of its investigation as it could have.

It further noted that the

Court found that the government's omissions were.not material to Title Ill’s
necessity requirement and that it provided the bare minimum necessary to comply

24

with Title III.

However, the District Court missed the'point, the agents/gov-

emment s omissions were deliberate, and to continue to get their extensions
for the Title III wiretap they falsified their application and alleged that they
had not discovered the supply side of Bowman's drug distribution which they
knew and had evidence was Petitioner.
Petitioner s counsel had the evidence of the deliberate falsehoods and omissions but did not present it to the District Court during the suppression in­
quiry.

The Court of Appeals during oral argument told the government that they

wouldn t know what', the particular authorizing judge would want to know about
the ongoing investigation.

The Court of Appeals also noted during oral argument

that when applying for a Title III wiretap Congress did not intend for the govemment to only give a statement of necessity to obtain the wiretap.

The District

Court stated that it would misstate the Court of Appeals language that the goveminent j"could have" provided more information in its affidavits, if, it found
tnat the government was required to provide more.
District Court is picking what it wants to read,

However, it appears that the
The Court of Appeals in their

written opinion and during oral argument stated that the government:
could have and should have included the omitted information in the wiretap
affidavits because it would be keeping with the strict adherence of the re­
sponsibilities' imposed by Congress.
In that context, the same awareness would apply to Petitioner's counsel who knew
what the Title III requirements were, but

moreover, was notified by Petitioner

on numerous occasions about the omitted information but failed to provide it during the wiretap violation inquiry.
The District Court also .claim that even if Petitioner's counsel failed to
include the arguments Petitioner cannot prove prejudice based on its allegation
that the Court of Appeals rejected the argument,
is misleading.

The District Court's assessment

The Court of Appeals did not address whether Petitioner's counsel

25

4

was ineffective for his failure to provide the information.

Moreover, during

oral argument the pannel explicitly noted that the government would not know all
of what the authorizing judge would want to know •«'/.-hen authorizing the wiretap
m an open investigation.
In Petitioner s case had the authorizing judge knew "at that time" that
the agents actually falsified information in their applications and deliberately
omitted relevant information in their applications and the results of the
proceeding would have been different.

Here, in order for the agents to obtain

extensions for their wiretaps, they falsified their applications by claiming
that they had not yet discovered the supply side to Bowman's distribution and
was still searching, when in fact they did know.

The agents knew that it was

Petitioner, had pen registers connecting him to Bowman as well as an inform­
ant who had known Petitioner for many, years, had investigated him as the supply
side to the other investigations, had prior accost Petitioner about their con­
tentions, heard his name through other wiretaps, and two wiretap authoriza/

tions had been lodged against Petitioner prior, with failed results, which the
prior application s were also omitted from the information in the isstant ap­
plications .
Had the authorizing judge knew at that time that the agents were deliberate­
ly falsifying and omitting the information in their applications
to the Title III wiretaps would not have been granted.

the extensions

It was through informa­

tion gained via the wiretap extensions that lead to the location of the storage
unit and seizure of cocaine. . Petitioner can and did prove prejudice through his
briefs that his counsel was ineffective for not presenting the evidence.

Pet-

xL-xOtiCi. has demonstrated that reasonable jurist could debate whether the petition
concerning this issue should have been resolved in a different manner and that
the issue presented is adequate to deserve encouragement to proceed further.

26

.

5)

Counsel's Failure to Challenge the Sufficiency of the Superseding Indictment:

In Petitioner1s case, the indictment charged Petitioner with conspiracy to
unlawfully, knowingly and intentionally distribute and possess with intent to
distribute mixtures and substances containing a detectable amount of cocaine
and the amount of said mixtures and substance was five kilograms or more,1
The indictment does not list any means and manner or overt acts to which Pet­
itioner is alleged to have committed the offense.
In this case, the government had charged several alleged conspirators with
cocaine base,-also known as crack cocaine.

After presentation- during trial the

government moved the Court to hold Petitioner accountable for distribution of
crack cocaine that was testified to.

However, based on the defective indict­

ment, Petitioner was blind-sided and was not able to develope a defense based on
the distribution of the crack cocaine alleged against others who were charged
with

it in the indictment.

Nothing in this case or allegations suggested that

/

Petitioner sold or was involved in the sale of crack cocaine.

All evidence and

allegations were toward Petitioner being involved with the supply of powder co­
caine .

Tne District Court’s assessment of this claim is debatable and should have
been handled in a different manner:

The District Court, claims that the indictment's language that Petitioner
was being charged with having to, distributed and possessed with intent to dis­
tribute mixtures and substances containing a detectable amount of cocaine, was
notice that he was being held accountable for the distribution of crack cocaine
which no evidence was presented in the indictment', discovery or at trial, that
he was involved with.

Petitioner hadn't even sold powder cocaine to the infor-

27

4

mer who testified as to selling crack cocaine.
Court is claiming

Moreover, if what the District

was notice of being charged with the sale of crack cocaine

then the government would not have had to move the Court, after presentation of
the trial, to hold Petitioner accountable for the testimony of the crack cocaine.'
Petitioner's counsel was ineffective for not challenging the efficiency of
the indictment.

Petitioner has demonstrated that reasonable jurist could debate

whether the petition concerning this issue should have been resolved in a differ­
ent manner and that the issue presented is adequate to deserve encouragement to
proceed further. ■.
CONCLUSION:
Petitioner has demonstrated that reasonable jurist could debate whether
the issues presented to the District Court which are contained in this applica­
tion whould have been resolved in a different manner and that the issues pref
sented are adequate to deserve
enouragement to proceed further.

The COA should

.be/issued in this case on all issues presented.

Date:
Respectfully Submitted

28

/I

